la
This case was not selected for publication in West's
Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1 generally
governing citation of judicial decisions issued on or
after Jan. 1,2007. See also U.S.Ct. of Appeals 3rd Cir.
App. I, IOP 5.1, 5.3, and 5.7.
United States Court of Appeals, Third Circuit.
Reginald L. SYDNOR, Appellant
v.
Mark A. ROBBINS, Vice Chairman, et a!.; United
States Merit Systems Protection Board (“Board”), in
their official Member Capacity, as well as Their
Predecessors, Successors or Assigns
No. 20-1006
Submitted Under Third Circuit L.A.R. 34.1(a) on
September 17,2020(Filed: September 21,2020)
On Appeal from the United States District Court for the
Eastern District of Pennsylvania (D.C. Civil No. 2-18-cv02631), District Judge: Hon. C. Darnell Jones, II
Attorneys and Law Firms
Reginald L. Sydnor, Esq., Pro Se
Stacey L.B. Smith, Esq., Office of United States
Attorney, Philadelphia, PA, for Defendants-Appellees
Before: KRAUSE, RESTREPO, andBIBAS, Circuit
Judges
OPINION*
KRAUSE, Circuit Judge.

2a
federal
Reginald Sydnor,
formerly
a
administrative law judge, was terminated and debarred
in late 1998. This is his fourth attempt to challenge that
decision in federal court.1 Perhaps unsurprisingly, the
arguments he now advances are untimely and could have
been or were resolved in previous decisions. We
therefore will affirm the District Court's orders
dismissing Sydnor's complaint and denying his motion
for reconsideration.
DISCUSSION2
At bottom, this dispute is the same
one Sydnor has been pressing for over two decades: that
in finding him unsuitable for federal employment, the
Merit Systems Protection Board (MSPB or the Board)
wrongfully denied him substantive and procedural
protections under 5 U.S.C. § 7521. The Board's final
decision on that point came in December 1998. Sydnor v.
OPM, Nos. PH-0731-98-0188-1-1 & PH-0752-98-0213-1-1,
1998 WL 974917 (MSPB Dec. 30, 1998). That poses a
major problem for Sydnor's current efforts. Typically, a
litigant in his position has at most two months to seek
judicial
review, see 5
U.S.C.
§
7703(b)(1)—
(2) (establishing thirty- and sixty-day periods depending
on the nature of the claim), and even the more forgiving
catch-all provision for suits against the United States
allows for only six years, see28 U.S.C. § 2401(a). Using
basic
arithmetic,
the
District
Court
concluded Sydnor's claims were “untimely and must
therefore be dismissed.” App. 3a n.l. That conclusion
could hardly have been a surprise, as it was not the first
time a court rejected one of Sydnor's collateral attacks
against the MSPB decision as untimely. See Sydnor v.
OPM, No. 06-CV-0014, 2007 WL 2029300, at *4-6 (E.D.

3a
Pa. July 11, 2007), ajfd on other grounds, 336 F. App'x
175 (3d Cir. 2009).
Trying to avoid that conclusion, Sydnor argues
the District Court should have started the clock in April
2015, when—in response to his letter urging the MSPB
to reopen the 1998 proceedings—the Clerk of the Board
told him he had “no further right to review.” App. 61.
The District Court wisely rejected that argument,
reasoning that Sydnor1 s claims against the Board
accrued as of the 1998 decision denying his
administrative appeal, not as of “[a] letter sent ...
seventeen years later.... [that] merely reiterated the
prior final decision and had absolutely no effect on [his]
legal
rights.”
App.
4a
n.l.
We
agree.
Accepting Sydnor's argument to the contrary would
give all aggrieved litigants with time-barred claims the
ability to solicit a pro forma statement from the agency
that no more remedies were available and thereby
revive long-expired periods to seek judicial review.
Even
apart
from
the
timeliness
issue, Sydnor's claims were properly dismissed for an
independent reason: They are precluded. Here, we need
not reinvent the wheel. Faced in 2009 with similar claims
by Sydnor about the Government's “failure to comply
with 5 U.S.C. § 7521 in making its unsuitability ...
determination,” we held those claims were “barred by
the doctrine of res judicata” because Sydnor was
“attacking] the same decision challenged in his prior
action[s] (albeit not on precisely the same
grounds).” Sydnor v. OPM, 336 F. App'x 175,180-81 (3d
Cir. 2009). Now, as then, the “final judgment on the
merits” in Sydnor's previous judicial actions “precludes
... relitigati[on] [of] issues that were or could have been
raised” before. Id. at 181 (quotingFederated Dept

4a
Stores v. Moitie, 452 U.S. 394, 398, 101 S.Ct. 2424, 69
L.Ed.2d 103 (1981)).
Again
trying
to
skirt
well-tread
ground, Sydnor argues preclusion is inappropriate
because he has sued the members of the MSPB rather
than the Board itself. That argument runs aground on
settled precedent. An official-capacity suit, “in all
respects other than name, [is] treated as a suit against
the entity.” Kentucky v. Graham, 473 U.S. 159,166,105
S.Ct. 3099, 87 L.Ed.2d 114 (1985). For that reason, our
preclusion case law looks past such nominal distinctions
among governmental defendants. See, e.g.,Nat'l R.R.
Passenger Corp. v. Pa. Pub. Util. Comm'n, 288 F.3d 519,
527 (3d Cir. 2002) (holding that because “commissioners
in their official capacity comprise the [agency],” the
commissioners and agency are the “same parties” for
preclusion purposes (capitalization altered)); see
also Sunshine Anthracite Coal Co. v. Adkins, 310 U.S.
381, 402-03, 60 S.Ct. 907, 84 L.Ed. 1263 (1940) (“[A]
judgment in a suit between a party and a representative
of the United States is res judicata in relitigation of the
same issue between that party and another officer of the
government.”).
Sydnor'slast resort is an argument that, he
contends, he could not have raised before: that he is
entitled to relief under Lucia v. SEC, — U.S.----- , 138
S. Ct. 2044,201 L.Ed.2d 464 (2018), which the Supreme
Court decided one day before he filed this lawsuit. We
see at least three fundamental flaws with that argument.
First, Sydnor failed to raise it before the District Court
until his motion for reconsideration, which abandoned
his previous lines of argument and was entirely based on
the Lucia decision. While reconsideration may be
appropriate upon “an intervening change in the
controlling law,” Max's Seafood Cafe ex rel. Lou-Ann,

#

5e
Inc. v. Quinteros, 176 F.3d 669, 677 (3d Cir.
1999), Sydnor makes no effort to explain why he could
not have raised it in his initial or corrected complaint, in
a subsequent motion to amend, or in opposing the
Government's motion to dismiss. Second, we question
the basic premise of Sydnor's argument: that Lucia was
a doctrinal sea change he could not have anticipated in
his initial appeal and subsequent collateral attacks. See,
e.g., Malouf v. SEC, 933 F.3d 1248, 1258 (10th Cir.
2019) (reasoning that Lucia did not “change[ ] the
law”); Island Creek Coal Co. v. Wilkerson, 910 F.3d 254,
257 (6th Cir. 2018) (“No precedent prevented [a litigant]
from bringing the constitutional claim before
then. Lucia itself noted that existing case law ‘says
everything necessary to decide th[e] case.’ ” (quoting 138
S. Ct. at 2053)). Third, whatever right the Court
recognized in Lucia, it was limited to “one who makes
a timely challenge to the constitutional validity of the
appointment of an officer who adjudicates his case.” 138
S. Ct. at 2055 (emphasis added) (citation omitted). As we
have explained, a litigant who fails to present an
Appointments Clause challenge in an appropriately
timely manner will thereafter be “barred from doing
so.” Cirko ex rel. Cirko v. Comm'r ofSoc. Sec., 948 F.3d
148, 159 (3d Cir. 2020). Such is the case with Sydnor,
whose current challenge against the appointment
method for the officer who decided his suitability for
employment in 1998 is anything but timely. The District
Court therefore acted within its discretion in
denying Sydnor's motion for reconsideration based
on Lucia.
CONCLUSION
For these reasons, we will affirm the orders of the
District Court.

#

6a
Footnotes
*This disposition is not an opinion of the full Court and
under I.O.P. 5.7 does not constitute binding precedent.
1 See Sydnor v. LaChance, No. 00-1035,2000 WL 331822
(4th Cir. Mar. 30, 2000) (per curiam), cert, denied, 531
U.S. 1014, 121 S.Ct. 572, 148 L.Ed.2d 490
(2000); Sydnor v. OPM, 336 F. App'x 175 (3d Cir.
2009); Sydnor v. MSPB, 466 F. App'x 907 (Fed. Cir.
2012) (per curiam).
2Because we write only for the parties, who are familiar
with the background of this case, we need not reiterate
the factual or procedural history. The District Court had
jurisdiction under 28 U.S.C. § 1331, and we have
jurisdiction under 28 U.S.C. § 1291. We review the
dismissal of Sydnor's complaint de novo, Vallies v. Sky
Bank, 432 F.3d 493, 494 (3d Cir. 2006), and the denial of
his motion for reconsideration for abuse of
discretion, Lazaridis v. Wehmer, 591 F.3d 666, 669 (3d
Cir. 2010) (per curiam).

7a
12/3/19
CIVIL ACTION
NO. 18-2631
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
REGINALD L. SYDNOR
Plaintiff,
v.
MARK A. ROBBINS, Vice Chairman; and,
UNITED STATES MERIT SYSTEM
PROTECTION BOARD (“BOARD”),
in their official member capacity, as well as
their predecessors, successors, or assigns
Defendants.
ORDER

i

AND NOW, this 3rd day of December 2019, upon
consideration of Plaintiffs Motion for Reconsideration
(ECF No. 13) and Defendants’ Response thereto (ECF
No. 15), it is hereby ORDERED that said Motion is
DENIED.1
BY THE COURT:
/s/ C. Darnell Jones, IIJ.
Footnote
1 “The purpose of a motion for reconsideration is to
correct manifest errors of law or fact or to present newly

8a
discovered evidence.” Harsco Corp. v. Zlotnicki, 779
F.2d 906, 909 (3d Cir. 1985). “The scope of a motion for
reconsideration, we have held, is extremely limited.
Such motions are not-to be used as an opportunity to
relitigate the case; rather, they may be used only to
correct manifest errors of law or fact or to present newly
discovered evidence. ‘Accordingly, a judgment may be
altered or amended [only] if the party seeking
reconsideration shows at least one of the -following
grounds: (1) an intervening change in the controlling law;
(2) the availability of new evidence that was not available
when the court granted the motion [ ]; or (3) the need to
correct a clear error of law or fact or to prevent manifest
injustice.’” Blystone v. Horn, 664 F.3d 397, 415 (3d Cir.
2011) (quoting Howard Hess Dental Labs., Inc. v.
Dentsply Int'l Inc., 602 F.3d 237,251 (3d Cir. 2010)).
In this case, Plaintiff seeks reconsideration of this
Court’s prior Order based upon his assertion that the
“agency adjudication [was] ‘tainted’ with an
appointment violation.” (Mot. Reconsideration 3.) In
support of same, Plaintiff relies upon the Supreme
Court’s holding in Lucia v. S.E.C., 138 S.Ct. 2044, 2055,
201 L. Ed. 2d 464, 475 (2018), which—in the context of
Securities Exchange Commission ALJs— held that
“ALJs are ‘Officers of the United States’ within the
meaning of the Appointments Clause,” therefore they
must be duly appointed before rendering a decision
regarding securities law violations.
Paragraphs 31 through 38 of Plaintiff’s Complaint
allege in part that the “Board” violated 5 U.S.C. §7521
by permitting an “attorney administrative judge” to
process and adjudicate his case, thereby denying
Plaintiff his right to due process. In sum, Plaintiff claims
the “attorney administrative judge” did not permit
Plaintiff to present certain testimony and did not base

9a
the final decision on good cause. Moreover, Plaintiff
claims he was never provided his right to have the
adverse action reviewed by the board on appeal. (Compl.
%% 31-38.)
In the initial decision of the MSPB, the Board specifically
addressed Plaintiffs contention that he was entitled to
the procedural protections of Section 7521 as follows:
[A]cting within its delegated authority, OPM
promulgated regulations governing suitability
determinations as well as regulations governing
the appointment and removal of an ALJ. See 5
C.F.R. Parts 731 and 930, Subpart B. The
regulations provide an express exception to 7521
procedures in actions involving a suitability
determination of an ALJ. OPM’s regulations
specifically state that the procedural protections
afforded an ALJ by 7521 “do not apply in making
dismissals or taking other actions requested by
OPM under §§ 5.2 and 5.3 of this chapter...” 5
C.F.R. § 830.214(c).
*** *

Consequently, despite the fact that the appellant
is an ALJ, he has no entitlement to the additional
procedural protections afforded to an ALJ in
designated actions pursuant to 5 U.S.C. § 7521.
Sydnor v. Office of Personnel Management, Docket No.
PH-0731-98-0188-1-1, at 5 (MSPB June 11,1998).
Aside from the foregoing, the claims presented in
Plaintiffs most recent Complaint have been previously
litigated in various other forums, including the Third
Circuit, where it was determined that Plaintiffs
allegations that “the procedures through which he was
deemed unsuitable and debarred did not comply with the

10a
protections set forth in § 7521” were “barred by the
doctrine of res judicata” Sydnor v. OPM, 336 F. App’x
175,180 (3d Cir. 2009); see also'Sydnorv. Berry, EEOC
Appeal No. 0120101050, 2010 EEOPUB LEXIS 1662, at
* 9-10 (June 3, 2010) (“[W]e are persuaded that the
issues related to complainant’s debarment and removal
from his Administrative Law Judge position have been
fully litigated before the MSPB and the Fourth Circuit
Court of Appeals.”).
Plaintiff now petitions this Court for
reconsideration of its dismissal Order based upon the
Supreme Court’s holding in Lucia, which was issued one
day before he filed his Complaint in this case. A reading
of Lucia clearly reveals its inapplicability to the instant
matter. As such, this most recent effort by Plaintiff to
resuscitate issues that have been repeatedly assessed
and rejected in both administrative and federal court
forums for more than two decades, is of no avail.

11a
6/28/2019
CIVIL ACTION
NO. 18-2631
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
REGINALD L. SYDNOR
Plaintiff,
v.
MARK A. ROBBINS, Vice Chairman; and,
UNITED STATES MERIT SYSTEM
PROTECTION BOARD (“BOARD”),
in their official member capacity, as well as
their predecessors, successors, or assigns
Defendants.
ORDER
AND NOW, this 26th day of June 2019, upon
consideration of Defendants’ Motion to Dismiss (ECF
No, 6) and Plaintiffs Response thereto (ECF No. 8), it is
hereby ORDERED that said Motion is GRANTED.1
BY THE COURT:
/si C. Darnell Jones, IIJ.
Footnotes
1 Plaintiffs claims against Defendants are untimely and
must therefore be dismissed. Plaintiff was required to
seek judicial review of the Merit System Protection 12a

12a
Board’s (“MSPB”) decisions in federal court “within six
years after the right of action first accrues.” 28 U.S.C. §
2401(a). Plaintiffreceived a final decision from the MSPB
denying his challenges to his termination and debarment
on December 30, 1998. (ECF No. 6, Exhs. 1D-1E.)
Plaintiff has since attempted to challenge the same
decision in several administrative and federal courts
(including the United States Supreme Court) under
several theories, all of which have been rejected. (ECF
No. 6, Exhs. 1A-1L.) Plaintiff now returns to the Eastern
District of Pennsylvania to once again challenge the
same termination and debarment (Compl. 81(b)), based
on a misguided argument regarding exactly when the
clock began to run on his claims.
In April 2015, Plaintiff wrote a letter to the
Chairwoman of the MSPB in an effort to re-litigate his
termination and debarment claims. (ECF No. 8, Exh. A.)
The Board Clerk responded that the prior MSPB
decisions were final and that pursuant to pertinent
regulations, Plaintiff was not entitled to any further
review of the claims. (ECF No. 8, Exh. B.) Plaintiff now
maintains it was at this point (receipt of the MSPB’s
April 29,2015 letter) that MSPB decisions from 1998 and
2010 (rejecting Plaintiffs appeal regarding the 1998
decision on the basis of res judicata) became final,
therefore Plaintiff asserts he had six years from his
receipt of said letter to bring a timely claim. (ECF No. 8
at 6.)

13a
12/4/20
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 20-1006
REGINALD L. SYDNOR, Appellant
v.
MARK A. ROBBINS, VICE CHAIRMAN, ET AL.;
UNITED STATES MERIT SYSTEMS
PROTECTION BOARD ("BOARD"), IN THEIR
OFFICIAL MEMBER CAPACITY, AS WELL AS
THEIR PREDECESSORS, SUCCESSORS OR
ASSIGNS
On Appeal from the United States District Court for
the Eastern District of Pennsylvania
(D.C. No. 2-18-cv-02631) District Judge: Hon. C.
Darnell Jones, II
SUR PETITION FOR REHEARING
Present: SMITH, Chief Judge, McKEE, AMBRO,
CHAGARES, JORDAN, HARDIMAN,
GREENAWAY, JR., SHWARTZ, KRAUSE,
RESTREPO, BIBAS, PORTER, MATEY, and
PHIPPS, Circuit Judges
The petition for rehearing filed by Appellant in the
above-entitled case having been submitted to the judges
who participated in the decision of this Court and to all
the other available circuit judges of the circuit in regular
active service, and no judge who concurred in the
decision having asked for rehearing, and a majority of
the judges of the circuit in regular service not having

J
l!

14a
voted for rehearing, the petition for rehearing by the
panel and the Court en bane, is denied.
BY THE COURT,
s/ Cheryl Ann Krause
Circuit Judge

15a
Date: December 4,2020
PDB/cc: All Counsel of Record
UNITED STATES OF AMERICA MERIT
SYSTEMS PROTECTION BOARD
2010 MSPB 163
Docket No. PH-0752-09-0619-1-1
Donald T. McDougall,
Appellant,
v.
Social Security Administration,
Agency.
August 13,2010
Donald T. McDougall, Esquire, Friendsville, Maryland,
pro se.
Robert Drum, Esquire, Philadelphia, Pennsylvania, for
the agency.
BEFORE
Susan Tsui Grundmann, Chairman Anne M. Wagner,
Vice Chairman Mary M. Rose, Member
OPINION AND ORDER
The appellant has filed a petition for review of the
administrative judge’s initial decision that dismissed his
alleged constructive removal appeal for lack of
jurisdiction. For the reasons set forth below, we DENY
the appellant’s petition for review, REOPEN the appeal

16a
on our own motion under 5 C.F.R. § 1201.118, VACATE
the initial decision, and REASSIGN the appeal to an
administrative law judge for adjudication.
BACKGROUND
The appellant served as an administrative law judge at
the agency’s Morgantown, West Virginia, office. Initial
Appeal File (IAF), Tab 1 at 1; Tab 6, Subtab 3. The
appellant alleged that between July 2006 and August
2008, he had a series of five or six conflicts with his
supervisor, the Chief Administrative Law Judge, which
led him to announce that he would retire as of January 3,
2009. IAF, Tab 5, Subtab 1 at 7-18; see IAF, Tab 6,
Subtab 3. On December 2, 2008, the appellant filed a
formal complaint of discrimination with his agency’s
Equal Employment Opportunity (EEO) office. IAF, Tab
6, Subtab 1 at 1, Subtab 2 at 2. In his complaint, the
appellant alleged that the Chief Administrative Law
Judge subjected him to a hostile work environment and
discriminated against him based on his mental and
physical disabilities, forcing him to retire. IAF, Tab 6,
Subtab 2 at 1-3. The appellant retired as scheduled on
January 3,2009. IAF, Tab 6, Subtab 3. On July 24,2009,
the agency issued its final EEO decision, finding that the
agency had not discriminated against the appellant.
IAF, Tab 6, Subtab 2 at 1,13.
The appellant filed a timely appeal with the Board’s
Northeastern Regional Office. IAF, Tab 1. The
administrative judge assigned to the case provided
explicit. notice to the appellant regarding how to
establish Board jurisdiction over an alleged constructive
removal appeal and directed him to file evidence and
argument proving that the action at issue was within the

17a
' Board’s jurisdiction. IAF, Tabs 2-3. The appellant and
the agency filed responses. IAF, Tabs 5-6. In her initial
decision, the administrative judge dismissed the appeal
for lack of jurisdiction, finding that the appellant failed
to establish that his retirement was involuntary. IAF,
Tab 9.
The appellant has filed a petition for review. Petition for
Review File (PFR File), Tab 1. The agency has
responded in opposition to the petition for review. PFR
File, Tab 3.
ANALYSIS
The Board will grant a petition for review only when
significant new evidence is presented or the
administrative judge made an error interpreting a law
or regulation. Lopez v. Department of the Navy, 108
M.S.P.R. 384, H 16 (2008); 5 C.F.R. § 1201.115(d). The
appellant has not met this standard. Therefore, we deny
the appellant’s petition for review. We reopen the
appeal on our own motion under 5 C.F.R. § 1201.118,
however, to address the issue of the administrative
judge’s authority to adjudicate this case.
The Board has original jurisdiction to adjudicate adverse
actions against administrative law judges under 5 U.S.C.
§ 7521. Social Security Administration v. Long, 113
M.S.P.R. 190, 1f 12 (2010); see Tunik v. Merit Systems
Protection Board, 407 F.3d 1326, 1332-33 (Fed Cir
2005). An agency may take an action against an
administrative law judge “only for good cause
established and determined by the Merit Systems
Protection Board on the record after opportunity for
hearing before the Board.” 5 U.S.C. § 7521(a); see Long,

18a
113 M.S.P.R. 190, If 12.
Furthermore, the procedures in an action against an
administrative law judge differ from those in adverse
action appeals by other federal employees because an
administrative law judge is entitled to have his appeal
adjudicated under the Administrative Procedures Act
(APA), 5 U.S.C. § 551, et seq. See Social Security
Administration v. Dantoni, 77 M.S.P.R. 516, 521, affd,
173 F.3d 435 (Fed. Cir. 1998) (Table); Social Security
Administration v. Goodman, 28 M.S.P.R. 120, 124
(1985). The provisions for adverse action appeals under
Chapter 75, Subchapter II, see 5 U.S.C. §§ 7511-7514, do
not apply to adverse actions taken against
administrative law judges, see 5 U.S.C. § 7512(E).
Under the APA, the taking of evidence and any hearing
in an action against an administrative law judge must be
presided over by the full Board, one or more Board
members, or an administrative law judge. See 5 U.S.C.
§ 556(b). The Board’s regulations specifically designate
that “[a]n administrative law judge will hear an action
brought by an employing agency under this subpart
against a respondent administrative law judge.” 5
C.F.R. § 1201.140(a)(1); see also Dantoni, 77 M.S.P.R. at
521. The assigned administrative law judge prepares the
initial decision, pursuant to 5 U.S.C. § 557, that
ultimately can be reviewed by the Board via a petition
for review. 5 C.F.R. § 1201.140(a)(2). This same
procedure applies when an administrative law judge
brings an action affirmatively alleging constructive
removal by the agency. 5 C.F.R. § 1201.142.
The appellant’s appeal was adjudicated by the
administrative judge as an adverse action appeal under

19a
Chapter 75, Subchapter II. IAF, Tab 9. This was error
because those provisions do not apply to adverse actions
taken against administrative law judges, see 5 U.S.C. §
7512(E), and the administrative judge lacked authority
to adjudicate the administrative law judge’s appeal, see
5 U.S.C. § 556(b). Furthermore, given the special
procedural rules which apply to actions against
administrative law judges, a complaint should have been
filed with the Clerk of the Board, rather than with a
regional office, for special handling. See 5 C.F.R. §§
1201.137(b), 1201.142.
Thus, it was error to assign the appellant’s case to an
administrative judge, and the appeal must be
adjudicated anew by an administrative law judge under
the APA. After the administrative law judge prepares
an initial decision, the appellant can seek further review
before the full Board. 5 C.F.R. § 1201.140(a)(2).
We therefore VACATE the initial decision and
REASSIGN this aof the Board’s administrative law
judges for adjudication.
William D. Spencer
Clerk of the Board
Washington, D.C.

C

I

20a
138 S.Ct. 2044
Supreme Court of the United States
Raymond J. LUCIA, et al., Petitioners
v.
SECURITIES AND EXCHANGE COMMISSION.
No. 17-130.
Argued April 23,2018.Decided June 21,2018.
Justice KAGAN delivered the opinion of the Court.
The Appointments Clause of the Constitution lays out
the permissible methods of appointing “Officers of the
United States,” a class of government officials distinct
from mere employees. Art. II, § 2. cl. 2. This case
requires us to decide whether administrative law judges
(ALJs) of the Securities and Exchange Commission
(SEC or Commission) qualify as such “Officers.” In
keeping with Freytaa v. Commissioner. 501 U.S. 868.
Ill S.Ct. 2631.115 L.Ed.2d 764 (1991). we hold that they
do.
I
The SEC has statutory authority to enforce the nation's
securities laws. One way it can do so is by instituting an
administrative proceeding against an alleged
wrongdoer. By law, the Commission may itself preside
over such a proceeding. See 17 C.F.R. § 201.110 (20171.
But the Commission also may, and typically does,
delegate that task to an ALJ. See ibid.] 15 U.S.C. § 78d1(a). The SEC currently has five ALJs. Other staff
members, rather than the Commission proper, selected
them all. See App. to Pet. for Cert. 295a-297a.

21a
An ALJ assigned to hear an SEC enforcement action
has extensive powers—the “authority-to do all things
necessary and appropriate to discharge his or her duties”
and ensure a “fair and orderly” adversarial
proceeding. §§ 201.111.200.14(a)- Those powers
“include, but are not limited to,” supervising discovery;
issuing, revoking, or modifying subpoenas; deciding
motions; ruling on the admissibility of evidence;
administering oaths; hearing and examining witnesses;
generally “[r]egulating the course of’ the proceeding and
the “conduct of the parties and their counsel”; and
imposing sanctions for “[contemptuous conduct” or
violations
of
procedural
requirements. §§
201.111.201,180: see §§ 200.14(a). 201.230. As that list
suggests, an SEC ALJ exercises authority “comparable
to” that of a federal district judge conducting a bench
trial. Butz v. Economou. 438 U.S. 478.513.98 S.Ct. 2894.
57 L.Ed.2d 895 (1978).
After a hearing ends, the ALJ issues an “initial
decision.” § 201.360(a)(1). That decision must set out
“findings and conclusions” about all “material issues of
fact [and] law”; it also must include the “appropriate
order, sanction, relief, or denial thereof.” § 201.360(b).
The Commission can then review the ALJ's decision,
either upon request or sua sponte. See § 201.360(d)(1).
But if it opts against review, the Commission “issue[s]
an order that the [ALJ's] decision has become final.” &
201.360(d)(2). At that point, the initial decision is
“deemed the action of the Commission.” § 78d-l(c).
This case began when the SEC instituted an
administrative
proceeding
against
petitioner
Raymond Lucia and
his
investment
company. Lucia marketed a retirement savings

22a
strategy
called
“Buckets
of
Money.”
In
the SEC's view, Lucia used
misleading slideshow
presentations to deceive prospective clients.
The SEC charged Lucia under
the
Investment
Advisers Act, § 80b-l et seq., and assigned ALJ
Cameron Elliot to adjudicate the case. After nine days of
testimony and argument, Judge Elliot issued an initial
decision concluding that Lucia had violated the Act and
imposing sanctions, including civil penalties of $300,000
and a lifetime bar from the investment industry. In his
decision, Judge Elliot made factual findings about only
one of the four ways the SEC thought Lucia's slideshow
misled investors. The Commission thus remanded for
factfinding on the other three claims, explaining that an
AU's “personal experience with the witnesses” places
him “in the best position to make findings of fact” and
“resolve any conflicts in the evidence.” App. to Pet. for
Cert. 241a. Judge Elliot then made additional findings of
deception and issued a revised initial decision, with the
same sanctions. See id., at 118a.
On appeal to the SEC, Lucia argued that the
administrative proceeding was invalid because Judge
Elliot had not been constitutionally appointed.
According to Lucia, the Commission's ALJs are
“Officers of the United States” and thus subject to the
Appointments Clause. Under that Clause, Lucia noted,
only the President, “Courts of Law,” or “Heads of
Departments” can appoint “Officers.” See Art. II. § 2. cl.
2. And none of those actors had made Judge Elliot an
ALJ. To be sure, the Commission itself counts as a
“Head[ ] of Department ].” Ibid.; see Free Enterprise
Fundv. Public Company-Accounting OversightBd.. 561
U.S. 477.511-513.130 S.Ct. 3138.177 L.Ed.2d 706 (20101.
But the Commission had left the task of appointing

23a
ALJs, including Judge Elliot, to SEC staff members.
See supra, at 2049. As a result, Lucia contended, Judge
Elliot lacked constitutional authority to do his job.
The Commission rejected Lucia's argument. It held that
the SEC's ALJs are not “Officers of the United States.”
Instead, they are “mere employees”—officials with
lesser responsibilities who fall outside the Appointments
Clause's ambit. App. to Pet. for Cert. 87a. The
Commission reasoned that its AUs do not “exercise
significant authority independent of [its own]
supervision.” Id., at 88a. Because that is so (said
the SEC), they need no special, high-level appointment.
See id,.,•3 at 86a.
Lucia's claim fared no better in the Court of Appeals for
the D.C. Circuit. A panel of that court seconded the
Commission's view that SECALJs are employees rather
than officers, and so are not subject to the Appointments
Clause. See 832 F.3d 277. 283-289 (2016V Luciathen
petitioned for rehearing en banc. The Court of Appeals
granted that request and heard argument in the case.
But the ten members of the en banc court divided evenly,
resulting in a per curiam order denying Lucia's r.laim
See 868 F.3d 1021 (2017). That decision conflicted with
one from the Court of Appeals for the Tenth Circuit.
See Bandimere v. SEC. 844 F.3d 1168.1179 (20161
Lucia asked us to resolve the split by deciding whether
the Commission's ALJs are “Officers of the United
States within the meaning of the Appointments Clause.”
Pet. for Cert. i. Up to that point, the Federal
Government (as represented by the Department of
Justice) had defended the Commission's position
that SEC ALJs are employees, not officers. But in

24a
responding to Lucia's petition, the Government
switched sides.1 So when we granted the petition, 583
-. 138 S.Ct. 736.199 L.Ed.2d 602 (20181. we also
U.S.
appointed an amicus curiae to defend the judgment
below.2 We now reverse.
II
The sole question here is whether the Commission's
ALJs are “Officers of the United States” or simply
employees of the Federal Government. The
Appointments Clause prescribes the exclusive means of
appointing “Officers.” Only the President, a court of law,
or a head of department can do so. See Art. II. § 2. cl.
2.s And as all parties agree, none of those actors
appointed Judge Elliot before he heard Lucia's case;
instead, SEC staff members gave him an ALJ slot. See
Brief for Petitioners 15; Brief for United States 38; Brief
for Court-Appointed Amicus Curiae 21. So if the
Commission's
ALJs
are
constitutional
officers, Lucia raises a valid Appointments Clause
claim. The only way to defeat his position is to show that
those ALJs are not officers at all, but instead non-officer
employees—part of the broad swath of “lesser
functionaries” in the Government's workforce. Buckley
v. Valeo. 424 U.S. 1.126. n. 162. 96 S.Ct. 612.46 L.Ed.2d
659 (1976) (per curiam). For if that is true, the
Appointments Clause cares not a whit about who named
them. See United States v. Germaine. 99 U.S. 508. 510.
25 L.Ed. 482 (1879).
Two decisions set out this Court's basic framework for
distinguishing
between
officers
and
employees. Germaine held that “civil surgeons” (doctors
hired to perform various physical exams) were mere

25a
employees because their duties were “occasional or
temporary”
rather
than
/‘continuing
and
permanent.” Id., at 511-512. Stressing “ideas of tenure
[and] duration,” the Court there made clear that an
individual must occupy a “continuing” position
established by law to qualify as an officer. Id., at
511. Buckley then set out another requirement, central
to this case. It determined that members of a federal
commission were officers only after finding that they
“exercis[ed] significant authority pursuant to the laws of
the United States.” 424 U.S.. at 126. 96 S.Ct. 612. The
inquiry thus focused on the extent of power an individual
wields in carrying out his assigned functions.
Both the amicus and the Government urge us to
elaborate on Buckley's “significant authority” test, but
another of our precedents makes that project
unnecessary. The standard is no doubt framed in general
terms, tempting advocates to add whatever glosses best
suit
their arguments. See
Brief for Amicus
Curiae 14 (contending that an individual wields
“significant authority” when he has “(i) the power to bind
the government or private parties (ii) in her own name
rather than in the name of a superior officer”); Reply
Brief for United States 2 (countering that an individual
wields that authority when he has “the power to bind the
government or third parties on significant matters” or to
undertake other “important and distinctively sovereign
functions”). And maybe one day we will see a need to
refine or enhance the test Buckley set out. so concisely.
But that day is not this one, because in Freytag v.
Commissioner. 501 U.S. 868. Ill S.Ct. 2631.115 L.Ed.2d
764 (1991). we applied the unadorned “significant
authority” test to adjudicative officials who are near­
carbon copies of the Commission's ALJs. As we now

r

\

26a
explain, our analysis there (sans any more detailed legal
criteria) necessarily decides this case.
The officials at issue in Freytag were the “special trial
judges” (STJs) of the United States Tax Court. The
authority of those judges depended on the significance of
the tax dispute before them. In “comparatively narrow
and minor matters,” they could both hear and
definitively resolve a case for the Tax Court. Id.. at 873.
Ill S.Ct. 2631. In more major matters, they could
preside over the hearing, but could not issue the final
decision; instead, they were to “prepare proposed
findings and an opinion” for a regular Tax Court judge to
consider. Ibid. The
proceeding
challenged
in Freytag was a major one, involving $1.5 billion in
alleged tax deficiencies. See id., at 871. n. 1. Ill S.Ct.
2631. After conducting a 14-week trial, the STJ drafted
a proposed decision in favor of the Government. A
regular judge then adopted the STJ's work as the
opinion of the Tax Court. See id., at 872, 111 S.Ct. 2631.
The losing parties argued on appeal that the STJ was not
constitutionally appointed.
This Court held that the Tax Court's STJs are officers,
not mere employees. Citing Germaine, the Court first
found that STJs hold a continuing office established by
law. See 501 U.S.. at 881. Ill S.Ct. 2631. They serve on
an ongoing, rather than a “temporary [or] episodic [,]
basis”; and their “duties, salary, and means of
appointment” are all specified in the Tax Code. Ibid. The
Court then considered, as BucJcleydemznds, the
“significance” of the “authority” STJs wield. 501 U.S.. at
881. Ill S.Ct. 2631. In addressing that issue, the
Government had argued that STJs are employees,
rather than officers, in all cases (like the one at issue) in

27a
which they could not “enter a final decision.” Ibid. But
the Court thought the Government's focus on finality
“ignore[d] the significance of the duties and discretion
that
[STJs]
possess.” /^.Describing
the
responsibilities involved in presiding over adversarial
hearings, the Court said: STJs “take testimony, conduct
trials, rule on the admissibility of evidence, and have the
power to enforce compliance with discovery
orders.” Id., at 881-882. Ill S.Ct. 2631. And the Court
observed that “[i]n the course of carrying out these
important functions, the [STJs] exercise significant
discretion.” Id., at 882. Ill S.Ct. 2631. That fact meant
they were officers, even when their decisions were not
final.4
Freytag says everything necessary to decide this case.
To begin, the Commission's ALJs, like the Tax Court's
STJs, hold a continuing office established by law. See id..
at 881, 111 S.Ct. 2631. Indeed, everyone here—Lucia,
the Government, and the amicus—agrees on that point.
See Brief for Petitioners 21; Brief for United States 1718, n. 3; Brief for Amicus Curiae 22, n. 7. Far from
serving temporarily or episodically, SEC ALJs
“receive[ ] a career appointment.” 5 C.F.R. § 930.204(a)
(2018). And that appointment is to a position created by
statute, down to its “duties, salary, and means of
appointment.” Freytag, 501 U.S.. at 878. Ill S.Ct. 2031:
see 5 U.S.C. §§ 550-557.5372.3105.
Still more, the Commission's ALJs exercise the same
“significant discretion” when carrying out the same
“important functions” as STJs do. Frevtaa. 501 U.S.. at
878. Ill S.Ct. 2631. Both sets of officials have all the
authority needed to ensure fair and orderly adversarial
hearings—indeed, nearly all the tools of federal trial

28a
judges. See Butz. 438 U.S.. at 513. 98 S.Ct.
2894: supra, at 2049 - 2050. Consider in order the four
specific (if overlapping) powers Freytag mentioned.
First, the Commission's AUs (like the Tax Court's
STJs) “take testimony.” 501 U.S.. at 881. Ill S.Ct. 2631.
More precisely, they “[r]eceiv[e] evidence” and
“[ejxamine witnesses” at hearings, and may also take
pre-hearing
depositions. 17
C.F.R.
li
201.111(c). 200.14(a)(4): see 5 U.S.C. § 556(c)(4). Second,
the ALJs (like STJs) “conduct trials.” 501 U.S.. at 882.
Ill S.Ct. 2631. As detailed earlier, they administer
oaths, rule on motions, and generally “regulat[e] the
course of’ a hearing, as well as the conduct of parties and
counsel. § 201.111: see §§ 200.14(a)(1). (a)(7): supra, at
2049 -2050. Third, the ALJs (like STJs) “rule on the
admissibility of evidence.” 501 U.S.. at 882. Ill S.Ct.
2631: see § 201.111(c). They thus critically shape the
administrative record (as they also do when issuing
document subpoenas). See § 201.111(b). And fourth, the
ALJs (like STJs) “have the power to enforce compliance
with discovery orders.” 501 U.S.. at 882, 111 S.Ct. 2631.
In particular, they may punish all “[cjontemptuous
conduct,” including violations of those orders, by means
as severe as excluding the offender from the hearing.
See § 201.180(a)(1). So point for point—straight
from Freytag's list—the Commission's ALJs have
equivalent duties and powers as STJs in conducting
adversarial inquiries.
And at the close of those proceedings, AUs issue
decisions much like that in Freytag—except with
potentially
more
independent
effect.
As
the Freytag Court recounted, STJs “prepare proposed
findings and an opinion” adjudicating charges and
assessing tax liabilities. 501 U.S.. at 873. Ill S.Ct. 2631:

I
29a
see supra, at 2052. Similarly, the Commission's ALJs
issue decisions containing factual findings, legal
conclusions, and appropriate remedies. See £
201.36003): supra, at 2049 - 2050. And what happens
next reveals that the ALJ can play the more autonomous
role. In a major case like Freytag, a regular Tax Court
judge must always review an STJ's opinion. And that
opinion counts for nothing unless the regular judge
adopts it as his own. See 501 U.S.. at 873. Ill S.Ct. 2631.
By contrast, the SEC can decide against reviewing an
ALJ decision at all. And when the SEC declines review
(and issues an order saying so), the ALJ's decision itself
“becomes final” and is “deemed the action of the
Commission.” § 201.360(d)(2): 15 U.S.C. § 78d-Kc):
see supra, at 2049 - 2050. That last-word capacity makes
this an a fortiori case: If the Tax Court's STJs are
officers, as Freytag held, then the Commission's ALJs
must be too.
The amicus offers up two distinctions to support the
opposite conclusion. His main argument relates to “the
power to enforce compliance with discovery orders”—
the fourth of Freytag's listed functions. 501 U.S.. at 882.
Ill S.Ct. 2631. The Tax Court's STJs, he states, had that
power “because they had authority to punish contempt”
(including discovery violations) through fines or
imprisonment. Brief for Amicus Curiae 37; see id., at 37,
n. 10 (citing 26 U.S.C. § 7456(c)). By contrast, he
observes, the Commission's ALJs have less capacious
power to sanction misconduct. The amicus's secondary
distinction involves how the Tax Court and Commission,
respectively, review the factfinding of STJs and ALJs.
The Tax Court's rules state that an STJ's findings of fact
“shall be presumed” correct. Tax Court Rule 183(d). In
comparison, the amicus notes, the SEC's regulations

30a
include no such deferential standard. See Brief
for Amicus Curiae 10,38, n. 11.
But those distinctions make no difference for officer
status. To start with the amicus's primary
point, Freytag referenced only the general “power to
enforce compliance with discovery orders,” not any
particular method of doing so. 501 U.S.. at 882. Ill S.Ct.
2631. True enough, the power to toss malefactors in jail
is an especially muscular means of enforcement—the
nuclear option of compliance tools. But just as armies can
often enforce their will through conventional weapons,
so too can administrative judges. As noted earlier, the
Commission's ALJs can respond to discovery violations
and other contemptuous conduct by excluding the
wrongdoer (whether party or lawyer) from the
proceedings—a powerful disincentive to resist a court
order. See § 201.180(a)(l)(i): supra, at 2053 - 2054.
Similarly, if the offender is an attorney, the ALJ can
“[sjummarily suspend” him from representing his
client—not something the typical lawyer wants to
invite. § 201.180(a)(l)(ii). And finally, a judge who will, in
the end, issue an opinion complete with factual findings,
legal conclusions, and sanctions has substantial informal
power to ensure the parties stay in line. Contrary to
the amicus's view, all that is enough to satisfy Freytag's
fourth item (even supposing, which we do not decide,
that each of those items is necessary for someone
conducting adversarial hearings to count as an officer).
And the amicus's standard-of-review distinction fares
just as badly. The Freytag Court never suggested that
the deference given to STJs' factual findings mattered to
its Appointments Clause analysis. Indeed, the relevant
part of Freytag did not so much as mention the subject

31a
(even though it came up at oral argument, see Tr. of Oral
Arg. 33-41). And anyway, the Commission often accords
a similar deference to its ALJs, even if not by regulation.
The Commission has repeatedly stated, as it did below,
that its ALJs are in the “best position to make findings
of fact” and “resolve any conflicts in the evidence.” App.
to Pet. for Cert. 241a (quoting
re Nasdaq Stock
Market LLC, SECRelease No. 57741 (Anr. 30. 200311
(That was why the SEC insisted that Judge Elliot make
factual findings
on
all
four
allegations
of Lucia's deception. See supra, at 2050.) And when
factfinding derives from credibility judgments, as it
frequently does, acceptance is near-automatic.
Recognizing ALJs' “personal experience with the
witnesses,” the Commission adopts their “credibility
finding[s] absent overwhelming evidence to the
contrary.” App. to Pet. for Cert. 241a: In re
Clawson. SEC Release No. 48143 (July 9. 2003V That
practice
erases
the
constitutional
line
the amicus proposes to draw.
The only issue left is remedial. For all the reasons we
have given, and all those Frey tag gave before, the
Commission's ALJs are “Officers of the United States,”
subject to the Appointments Clause. And as noted
earlier, Judge Elliot heard and decided Lucia's case
without the kind of appointment the Clause requires.
See supra, at 2051. This Court has held that “one who
makes a timely challenge to the constitutional validity of
the appointment of an officer who adjudicates his case”
is entitled to relief. Ryder v. United States. 515 TT.S. 177.
182-183. 115 S.Ct. 2031. 132 L.Ed.2d 130
(1995). Lucia made just such a timely challenge: He
contested the validity of Judge Elliot's appointment
before the Commission, and continued pressing that

32a
claim in the Court of Appeals and this Court. So what
relief follows? This Court has also held that the
“appropriate” remedy for an adjudication tainted with
an appointments violation is a new “hearing before a
properly appointed” Official. Id.. at 183. 188. 115 S.Ct.
2031. And we add today one thing more. That official
cannot be Judge Elliot, even if he has by now received
(or receives sometime in the future) a constitutional
appointment. Judge Elliot has already both
heard Lucia's case and issued an initial decision on the
merits. He cannot be expected to consider the matter as
though he had not adjudicated it before.5 To cure the
constitutional error, another ALJ (or the Commission
itself) must hold the new hearing to which Lucia is
entitled.5
We accordingly reverse the judgment of the Court of
Appeals and remand the case for further proceedings
consistent with this opinion.
It is so ordered.
Footnotes
lln the same certiorari-stage brief, the Government
asked us to add a second question presented: whether
the statutory restrictions on removing the Commission's
ALJs are constitutional. See Brief in Response 21. When
we granted certiorari, we chose not to take that step.
See 583 IJ.S.
. 138 S.Ct. 736.199 L.Ed.2d 602 f2018).
The Government's merits brief now asks us again to
address the removal issue. See Brief for United States
39-55. We once more decline. No court has addressed
that question, and we ordinarily await “thorough lower
court opinions to guide our analysis of the
merits.” Zivotofskv v. Clinton. 566 U.S. 189. 201. 132
S.Ct. 1421.182 L.Ed.2d 423 12012).

33a
2We appointed Anton Metlitsky to brief and argue the
case, 583 U.S.----- . 138 S.Ct. 736.199 L/Fld.2ri 602 (2018).
and he has ably discharged his responsibilities.
3That statement elides a distinction, not at issue here,
between “principal” and “inferior” officers. See Edmond
v. United States.520 IJ.S. 651. 659-660. 117 S.Ct. 1573137 L.Ed.2d 917 (1997). Only the President, with the
advice and consent of the Senate, can appoint a principal
officer; but Congress (instead of relying on that method)
may authorize the President alone, a court, or a
department head to appoint an inferior officer. See ibid.
Both the Government and Lucia view the SEC's AT..Tr
as inferior officers and acknowledge that the
Commission, as a head of department, can
constitutionally appoint them. See Brief for United
States 38; Brief for Petitioners 50-51.
4The Court also provided an alternative basis for
viewing the STJs as officers. “Even if the duties of [STJs
in major cases] were not as significant as we ... have
found them,” we stated, “our conclusion would be
unchanged.” Freytaa. 501 U.S.. at 878. Ill S.Ct. 2631.
That was because the Government had conceded that in
minor matters, where STJs could enter final decisions,
they had enough “independent authority” to count as
officers. Ibid. And we thought it made no sense to
classify the STJs as officers for some cases and
employees for others. See ibid. Justice SOTOMAYOR
relies on that back-up rationale in trying to
reconcile Freytag -with her view that “a prerequisite to
officer status is the authority” to issue at least some
“final decisions.” Post, at 2066 - 2067 (dissenting
opinion). But Freytag has two parts, and its primary
analysis explicitly rejects Justice SOTOMAYOR's
theory that final decisionmaking authority is a sine qua
non of officer status. See 501 U.S.. at 881-882, 111 S.Ct.

34a
2631. As she acknowledges, she must expunge that
reasoning to make her reading work. See post, at 2066 2067 (“That part of the opinion[ ] was unnecessary to the
result”).
SJustice BREYER disagrees with our decision to wrest
further proceedings from Judge Elliot, arguing that
“[f]or him to preside once again would not violate the
structural
purposes
[of]
the
Appointments
Clause.” Post, at 2064 (opinion concurring in judgment in
part and dissenting in part). But our Appointments
Clause remedies are designed not only to advance those
purposes directly, but also to create “[ Jincentive [s] to
raise Appointments Clause challenges.” Ryder v. United
States. 515 U.S. 177.183.115 S.Ct. 2031.132 L.Ed.2d 136
(1995). We best accomplish that goal by providing a
successful litigant with a hearing before a new judge.
That is especially so because (as Justice BREYER
points out) the old judge would have no reason to think
he did anything wrong on the merits, see post, at 2064 —
and so could be expected to reach all the same
judgments. But we do not hold that a new officer is
required for every Appointments Clause violation. As
Justice BREYER suggests, we can give that remedy
here because other ALJs (and the Commission) are
available to hear this case on remand.See ibid. If instead
the Appointments Clause . problem is with the
Commission itself, so that there is no substitute
decisionmaker, the rule of necessity would presumably
kick in and allow the Commission to do the rehearing.
See FTC v. Cement Institute. 333 U.S. 683. 700-703. 68
S.Ct. 793. 92 L.Ed. 1010 (IMS): 3 K. Davis,
Administrative Law Treatise § 19.9 (2d ed. 1980).
6While this case was on judicial review, the SEC issued
an order “ratif[ying]” the prior appointments of its
ALJs.
Order (Nov.
30,
2017),
online
at

35a
https://www.sec.gov/litigation/opinions/2017/3310440.pdf (as last visited June 18, 2018). Lucia argues
that the order is invalid. See Brief for Petitioners 50-56.
We see no reason to address that issue. The Commission
has not suggested that it intends to assign Lucia's case
on remand to an ALJ whose claim to authority rests on
the ratification order. The SEC may decide to
conduct Lucia's rehearing itself. Or it may assign the
hearing to an ALJ who has received a constitutional
appointment independent of the ratification.

v.

36a
Hon. Susan Tsui Grundmann,
Chairwoman
Merit Systems Protection Board
1615 M Street, NW
Washington, DC 20419
RE:

April 10,2015

Board’s Refusal to Vacate Flawed
Administrative Law Judge Adverse
Action Board Decisions, Rendered
Without 5 USC 7521 Due Process.
Docket No. PH-0752-98-0213-1-1
Docket No. PH-0731-98-0188-1-1
Docket No. CB-7521-10-0003-T-1

Dear Honorable Chairwoman Grundmann:
I am writing this letter to you because I am sure
you appointment as Chairwoman by President Barrack
Obama was in order to fix some of the obvious problems
with the Merit System Protection Board (Board). Said
obvious problem exists when a simple review of my
Board appeal decisions in Docket Nos. PH-0752-98-02131-1 and PH-0731-98-0188-1-1, clearly demonstrates an on
the face Board error in its statutory authority and
jurisdiction.
The Board is well aware and condones a Board
administrative judge usurping 5 USC 7521 mandated
due process procedures and the adjudication of flawed
Administrative Law Judge adverse action Board
decisions in these appeals. My repeated petitions and
motions to the Board to reopen these appeals and to
vacate these flawed Board decisions have been
systematically blocked, ignored, and quashed by the

37a
Board, including the current Board on which you sit as
the Chair.
As for my federal background, I am a U.S.
honorably discharged disabled veteran with close to 20
years of federal civil and military service. I have served
as a DEA Task Force Administrator and practice with
the EEOC for over 15 years as an experience trial
attorney, supervisor trial attorney, supervisor appeals
judge and regional attorney. In March 1997, the Social
Security Administration (SSA) appointed and employed
me as an Administrative Law Judge in the SSA’s
Voorhees, New Jersey Appeals Office.
In late October 1997, the OPM unilaterally
determined me unsuitable for federal employment and
debarred from federal employment for three years. OPM
instructed the SSA to remove me. (A questionable OPM
practice that was banned by your Board’s decision in
Aguzie V OPM. 2011MSPB 10.).
Up until this time, my federal record was void of
any disciplinary problems, either military or civilian. I
have always been a practicing attorney and a member in
good standing with the Pennsylvania Bar, now for over
40 years.
I appealed the OPM determination to the then
Board, as a clear 5 USC 7521 adverse action against an
agency employed Administration Law Judge. Oddly,
without explanation, the Board mysteriously channeled
my Board appeals to a Board administrative judge for
adjudication, rather than to assign them to the Board’s
Office of Administrative Law Judge.
Believing it was an administrative mistake, I
immediately petitioned the Board to transfer my Board
appeals to the Board’s Office of Administrative Law
Judge, pursuant to the due process statutory mandates
of 5 USC 7521. When the Board blocked and ignored my

38a
petition, it became clear the Board was intentionally
circumventing 5 USC 7521, the Board’s own regulations
and established Board case law. The Board never gave
an explanation for its unprecedented actions.
Ignoring the 5 USC 7521 due process procedures,
the Board administrative judge administered an ad hoc
Board proceeding, adjudicating me unsuitable for
federal employment, ordering me debarred from federal
service and removing me from my SSA Administrative
Law Judge employment. In doing so, the administrative
judge disregard the “for good cause” standard of review,
mandated in the adjudication of an Administrative Law
Judge’s adverse action. (Board Docket Nos. PH-0732-980213-1-1 and PH-0731-98-0188-1-1).
In my petition to that Board for review, I again
demanded my statutory due process rights and for the
Board to vacate the flawed Board administrative judge’s
adjudication and decision. I requested the Board to
remand my Board appeals to the Board’s Office of
Administrative Law Judge, for proper 5 USC 7521 due
process procedure and adjudication.
On December 30,1998, that Board, again without
any explanation or comment, denied my petition for
review, which automatically affirmed the flawed
administrative judge’s adjudication and decision.
Effective December 30, 1998, the SSA cut a Form 50
removing me from my Administrative Law Judge
employment, citing the flawed Board administrative
judge’s decision for its authority.
In early January 2001, following the end of the
debarment, I immediately requested the SSA to
reemploy me to my Administrative Law Judge position.
I considered myself still employed as a SSA
Administrative Law Judge, since the SSA, as my
employing agency, never sought to procedurally remove

I

39a
me “for good cause”, pursuant to mandated procedures
set forth by 5 USC 752L The SSA was well aware of the
mandated 5 USC 7521 Board procedures needed for any
agency adverse action against an employed
Administrative Law Judge.
For the next seven years, the SSA and the OPM
played “Monkey in the Middle” with me. They tossed the
reemployment issue back and forth as to what would be
the procedure? and what agency had to initiate the
process to reemploy me? Even after the OPM finally
made clear that the SSA could reemploy me, the SSA
fabricated excuse after excuse to avoid my
reemployment.
In a desperate effort to get the SSA to reemploy
me, I even took the Administrative Law Judge
examination again, so the SSA could select me as a newly
hired Administrative Law Judge. Although I scored at
the top of OPM’s certification list for Administrative
Law Judge selection, the SSA never selected me for
reemployment.
Since the SSA never sought a procedural 5 USC
7521 Board removal of me and yet refused to reemploy
me, I had to take early federal retirement in late 2009.1
appealed the SSA’s actions to the Board, which you now
chair, as an adverse constructive removal and forced
retirement, pursuant the procedures set forth in 5 USC
7521. (Board Docket No.CB-7521-10-0003-T-l).
Noting your Board’s then recent decision in the
McDougall V. SSA. 2010 MSPB 163, I likewise
motioned your Board to also vacate the obvious flawed
administrative judge’s adverse action decision in my
Board Docket Nos. PH-0732-98-0213-1-1 and PH-073198-0188-1-1. In McDougall. your Board reopened Judge
McDougall’s adverse action appeal on its own motion and
vacated the Board administrative judge’s flawed

<

40a
decision. Your Board made crystal clear, what was
obvious all along, that a Board administrative judge had
no Board subject matter jurisdiction to adjudicate an
employed agency Administrative Law Judge adverse
action.
Unlike what your Board did on its own motion in
the McDougall Board appeal, your Board ignored my
motion for your Board to reopen and vacate the same
flawed Board administrative judge’s adverse action
decision in my Board Docket Nos. PH-0732-98-0213-1-1
and - PH-98-0731-0188-1-1. Based upon your Board’s
refusal to vacate my previously flawed Board adverse
action decision, shortly thereafter, a Board
Administrative Law Judge dismissed my Board appeal
Docket No. CB-7521-10-0003-T-1, for res judicata.
Again, without comment, your Board denied my petition
for your Board to review my previously denied statutory
due process rights. The Federal Circuit, also without
comment, affirmed your Board’s unexplained disparate
actions.
To this date, I remain the only employed federal
agency Administrative Law Judge to ever be discipline,
removed and kept from federal employment by the
Board, without mandatory 5 USC 7521 adverse action
due process rights. As a matter of law, the Board does
not have any discretion, and certainly not a
discriminatory
discretion,
to
decide
which
Administrative Law Judge will or will not receive 5 USC
7521 due process rights. I never lost these statutory
rights and the Board is without any authority or
jurisdiction to take them. At this point, I would like for
the Board to either reopen and vacate these flawed
Board decisions or to personally explain to me what
makes me so different from any other Administrative
Law Judge to deserve the Board to discipline me from

:i

41a
federal service, without mandated statutory due
process.
Respectfully,
Reginald L. Syndnor
Administrative Law Judge
731 Buck Lane
Haverford, PA. 19041
856 816-0193
regsyn@aol.com

. 4.

!

42a
U.S. MERIT SYSTEMS PROTECTION BOARD
Office of the Clerk of the Board
1615 M Street, N.W.
Washington, D.C. 20419
Phone: 202 653 7200; Fax 202 653 7130;
E-Mail: mspb@mspb.gov
April 29,2015
Mr. Reginald L. Sydnor
731 Buck Lane
Haverford, PA 19041
Re:

Reginald L. Sydnor v. Office of Personnel
Management and Social Security
Administration
MSPB Docket Nos. PH-0731-98-0188-1-1, PH0752-98-0213-1-1;
Reginald L. Sydnor v. Social Security
Administration
MSPB Docket No. CB-7521-10-0003-T-1

Dear Mr. Sydnor:
This is in response to your April 10,2015 request
for reconsideration of the Board’s orders dated
December 30, 1998 and March 7, 2011, in the appeals
named above.
The orders included a specific statement that they
represent the final decisions of the Board in these
appeals and also notified you of your further review
rights. The Board’s regulations do not provide for your
request for reconsideration of the Board’s final decisions.
There is, therefore, no further right to review of these
appeals by the Board.
Sincerely,

43a
William D. Spencer
Clerk of the Board

44a
Hon. Susan Tsui Grundmann,
May 28,2015
Chairwoman
Merit Systems Protection Board (Board)
1615 M Street, NW Washington, DC 20419
RE:

Board’s Refusal to Vacate Flawed
Administrative Law Judge Adverse
Action Board Decisions, Rendered
Without 5 USC 7521 Due Process.
Docket No. PH-0752-98-0213-1-1
Docket No. PH-0731-98-0188-1-1
Docket No. CB-7521-10-0003-T-1

Dear Honorable Chairwoman Grundmann:
I am in receipt of your April 29, 2015 letter
responding to my April 10,2015 letter to you, addressing
the Board’s unexplainable discipline and removal of me
from my employed agency Administrative Law Judge
position, without 5 USC 7521 statutory due process. I
have attached both letters for your immediate reference.
Although the Board insists that it must have a
Board regulation to reconsider my per se flawed Board
final decisions, the record will always demonstrate that
the Board knowingly issued these flawed Board final
decisions in violation of federal due process statutes,
corresponding Board regulations and established Board
case law. Furthermore, it will always be established that
the Board intended to discipline, remove and keep me
removed from my federal employment, without the 5
USC 7521 due process protection afforded other
Administrative Law Judges.

45a
It is clear from the Board’s actions in my case that
the Board, on its own, has an unwritten policy to
arbitrarily and capriciously select what Administrative
Law Judge will or will not receive 5 USC 7521 due
process protection in an Administrative Law Judge
adverse action.
Ironically, on May 11, 2015, the Board released a
Report and Appendix to the President, President of the
Senate and the Speaker of the House of Representatives
titled “What is Due Process in Federal Civil Service
Employment”. However, the Report and Appendix
avoid any reference to the Board’s unwritten policy to
selectively apply and enforce the due process provisions
of 5 USC 7521, corresponding Board regulations and
established Board case law.
Respectfully,
Reginald L. Sydnor
Administrative Law Judge
Attachments:
CC: Mark A. Robbins, Board Member
Office of Policy and Evaluation

i

46a
No. 00In the
Supreme Court of the United States

REGINALD L. SYDNOR,
Petitioner,
v.
SOCIAL SECURITY ADMINISTRATION, AND
THE
OFFICE OF PERSONNEL MANAGEMENT,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

Reginald L. Sydnor
Attorney for Petitioner
731 Buck Lane
Haverford, PA 19041
(610) 649-0327

47a
QUESTIONS PRESENTED
I.
Are
Federal
Administrative
Agencies
Constitutionally Mandated to Comply with Federal
Statutory and Regulatory Disciplinary Due Process
Procedures when Disciplining Federal Employees.
II.
Is a Federal District Court Mandated to Comply
with Federal Statutory Due Process Procedure In the
Appeal of an Administrative Federal Employer
Discrimination Case.

48a
PARTIES TO THE PROCEEDINGS
In addition to the parties named in the caption,
the United States Merit Systems Protection Board now
becomes a necessary party to this proceeding because its
administrative procedure and judgment are also sought
to be reviewed by this Court.

49a
TABLE OF CONTENTS
Questions Presented.........
Parties to the Proceedings
Table of Contents..............
Table of Cited Authorities
Table of Appendices..........
Opinions Below.........................................
Statement of Jurisdiction......... ...............
Constitutional Statutory and Regulatory
Provisions Involved ............................
Statement of the Case.............................

Page
ii
m
IV

v
v
1
1
1
3

A. Disciplining Federal Agencies’ Factual
and Procedural Background.................

4

B. The Court Proceedings Below

9

Reasons for Granting the Writ
I. The Petition Should Be Granted Because
The Opinion Below Conflicts With This
Court’s
Prior
Ruling
On
The
Constitutional Demand For Due Process
When Removing A Federal Employee
From Federal Employment.......................

11

11

50a
TABLE OF APPENDICES
Page
Appendix A—Per Curiam Opinion Of The United
States Court Of Appeals For The Fourth
Circuit Dated And Decided March 30,2000....

la

Appendix B—Memorandum Of The United
States District Court For The District Of
Maryland Dated October 25, 1999 And Filed
October 26,1999..............................................

3a

Appendix C—Order Of The United States Of
America Merit Systems Protection Board
Dated December 30,1998................................

6a

Appendix D—Initial Decision Of The United
States Of America Merit Systems Protection
Board, Washington Regional Office Dated
June 11,1998....................................................

10a

Appendix E—Initial Decision Of The United
States Of America Merit Systems Protection
Board, Washington Regional Office Dated
June 3,1998......................................................

36a

Appendix F—Letter From Robert E. Taylor,
United States Merit Systems Protection
Board To Alan B. Epstein, Esq. Dated May 12,
1998

43a

Appendix G—Order Of The United States Of
America Merit Systems Protection Board,
Washington Regional Office Denying
Appellant’s Motion For Interlocutory Appeal

51a
And Denying Motion For Petition For Review
Of Denial Dated May 5,1998.........................

45a

54a
5 C.F.R. § 1201.140 provides in relevant part:
(a) Judge. (1) Administrative law judge
will hear an action brought by an employing
agency under this subpart against a respondent
administrative law judge.
5 C.F.R. § 1201.142 provides in relevant part:
An administrative law judge who alleges
that an agency has interfered with the judge’s
qualified decisional independence so as to
constitute an unauthorized action under 5 U.S.C.
7521 may file a complaint with the Board under
this subpart.
STATEMENT OF THE CASE
One of the fundamental questions involved in this
case is whether a federal employee is entitled to relief
from a district court judgment, endorsing federal
administrative agencies’ strict discipline of a federal
employee, in total disregard of established statutory and
regulatory due process disciplinary procedure. The
question arises in the context of the Social Security
Administration (SSA) and the MSPB removing an
appointed Administrative Law Judge (ALJ) from his
position without affording disciplinary due process
procedures set forth in 5 U.S.C. § 7521 and 5 C.F.R. §§
1201.137(a), 1201.140(a) and 1201.142.
Another essential question involved in this case is
whether a district court judgment should be vacated and
remanded when established statutory due process
procedure for the litigation of administratively appealed
federal employment discrimination matters is

55a
abandoned by the on March 31, 1998, Petitioner again
duly appealed to the MSPB all SSA disciplinary removal
suspension actions against Petitioner from September 2,
1997 to February 12, 1998 and indefinitely beyond.
Petitioner specifically appealed all SSA’s disciplinary
removal actions against Petitioner as denying statutory
due process and racially motivated in violation of Title
VII of the Civil Rights Act of 1964 (MSPB Docket No:
PH-0752-98-0213-1-1) (App. J). Petitioner again appealed
to the venue Northeastern Regional MSPB office. Again,
without any explanation, Petitioner’s appeal was
transferred to the Washington Regional MSPB office
and assigned to the same regional AJ (App. J).
On April 17,1998, Petitioner motioned the AJ to
consolidate both MSPB Docket Nos: PH-0731-98-0188-1
and PH-0752-98-0213-1-1 and forward the cases to the
appropriate MSPB office of Administrative Law Judge,
pursuant to 5 C.F.R. § 1201.140. The AJ denied
Petitioner’s motion (App. G). On May 4,1998, Petitioner
appealed interlocutory to the clerk of the MSPB to have
both appeals assigned and adjudicated by a MSPB
Administrative Law Judge pursuant to 5 C.F.R.
1201.140 and to have the SSA named as an appealed
MSPB party, pursuant to the mandate of 5 U.S.C. § 7521.
The clerk of the MSPB also denied Petitioner’s request
(App. F).
On June 3,1998, the AJ dismissed all Petitioner’s
appealed SSA disciplinary actions and related
discrimination charge against the SSA for lack of MSPB
subject matter jurisdiction (App. E). On June H, 1998,
the AJ affirmed OPM’s unsuitability determination and
ruled Petitioner failed to prove OPM violated the
Rehabilitation Act of 1973 (App. D).
Petitioner duly petitioned the MSPB for review
of the AJ’s initial decision in both appeals. Petitioner

56a
petitioned the MSPB to reverse the AJ’s finding that the
MSPB lacked subject matter jurisdiction over the SSA’s
disciplinary removal of Petitioner from his
Administrative Law Judge position, pursuant to 5
U.S.C. § 7521, 5 C.F.R. §§ 1201.137, 1201.140(a) and
1201.142. Likewise, inter alias, Petitioner petitioned the
MSPB to vacate any AJ findings on OPM’s suitability
determination and on the discrimination violation,
pursuant to 5 C.F.R. §§ 1201.137 and 1201.140. On
December 30, 1998, the MSPB consolidated both
Petitioner’s petitions for review and denied them
without comment or opinion (App. C).
Pursuant to 5 C.F.R. § 1201.115(d)(1), on January
19, 1999, Petitioner petitioned the MSPB for
reconsideration of its denial of the SSA subject matter,
jurisdiction, inter alias, pursuant to newly discovered
SSA FOIA information and contradictory actions of the
SSA and the MSPB in the comparison casein the matter
of I. Speilman, Administrative Law Judge, Social
Security Administration, Departments of Health,
Education and Welfare, 1MSPB 51, 1MSPR 54 (1979).
(A Caucasian SSA Administrative Law Judge
suspended sixty days, for falsification of application
documents, only after opportunity for a hearing before a
MSPB Administrative Law Judge).
On January 26, 1999, the MSPB informed
Petitioner by letter that he had no administrative right
to reconsideration, the matter was administratively
closed and Petitioner’s only other recourse was court
proceedings (App. J). Neither Petitioner reconsideration
request or the MSPB letter denial was made part of the
MSPB certified record.
Furthermore, Petitioner appealed the District
Court’s determination that the MSPB can arbitrarily
ignore its statutory due process mandate and change its

J
57a
regulatory due process procedural demands for the
discipline of a particular SSA, Administrative Law
Judge. Petitioner also requested the Fourth Circuit
Court of Appeals to remand the case back to the District
Court for a trial de novo on the administrative
discrimination issues, pursuant to 5 U.S.C. § 7703.
On March 30,2000, the Fourth Circuit of Appeals
found no error in the District Court’s findings and
affirmed the District Court’s judgment. Petitioner
petitioned the Fourth Circuit Court of Appeals for a
rehearing and hearing en banc which were denied on
July 10,2000.
REASONS FOR GRANTING THE WRIT
I.

a
■

THE PETITION SHOULD BE GRANTED
BECAUSE THE OPINION BELOW CONFLICTS
WITH THIS COURT’S PRIOR RULING ON THE
CONSTITUTIONAL DEMAND FOR DUE
PROCESS WHEN
REMOVING A FEDERAL EMPLOYEE FROM
FEDERAL EMPLOYMENT.
Petitioner’s petition for writ of certiorari should
be granted because the decision below conflicts with this
Court’s important prior rulings on the importance of due
process when depriving an individual of life, liberty or
property. Said deprivation must be preceded by notice
and opportunity for a hearing appropriate to the case.
The due process clause requires some kind of hearing
prior to the discharge of an employee who has a
constitutionally

L

\

S

vi
;r

62a
APPENDIX C—ORDER OF THE UNITED
STATES OF AMERICA MERIT SYSTEMS
PROTECTION BOARD DATED DECEMBER 30,
1998
UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD
DOCKET NUMBERS
PH-0731-98-0188-1-1
PH-0752-98-0213-1-1
REGINALD L. SYDNOR,
Appellant,
v.
OFFICE OF PERSONNEL MANAGEMENT,
and
SOCIAL SECURITY ADMINISTRATION,
Agencies.
DATE: DEC 30 1998

BEFORE
Ben L. Erdreich, Chairman
Beth S. Slavet, Vice Chair
Susanne T. Marshall, Member

63a
Appendix C
ORDER
After full consideration, we join these appeals for
adjudication pursuant to 5 C.F.R. §§ 1201.36(a)(2) and
1201.117(a)(5), and we DENY the appellant’s petitions
for review of the initial decisions issued on June 3,1998
and June 11,1998, because they do not meet the criteria
for review set forth at 5 C.F.R. § 1201.115. This is the
Board’s final order in this appeals. The initial decisions
in these appeals are now final. 5 C.F.R. § 1201.113(b).
NOTICE TO THE APPELLANT REGARDING
FURTHER REVIEW RIGHTS IN APPEAL
PH-0731-98-0188-1-1
You have the right to request further review of
the Board’s final decision in your appeal.
Discrimination Claims: Administrative Review
You may request the Equal Employment
Opportunity Commission (EEOC) to review the Board’s
final decision on your discrimination claims. See 5 U.S.C.
§ 7702(b)(1). You must submit your request to the EEOC
at the following address:
Equal Employment Opportunity Commission
Office of Federal Operations
P.O. Box 19848
Washington, DC 20036

64a
Appendix C
You should submit your request to the EEOC no
later than 30 calendar days after receipt of this order by
your representative, if you have one, or receipt by you
personally, whichever receipt occurs first. 5 U.S.C. §
7702(b)(1).
Discrimination and Other Claims: Judicial Action
If you do not request review of this order on your
discrimination claims by the EEOC, you may file a civil
action against the agency on both your discrimination
claims and your other claims in an appropriate United
States district court. See 5 U.S.C. § 7703(b)(2). You
should file your civil action with the district court no
later than 30 calendar days after receipt of this order by
your representative, if you have one, or receipt by you
personally, whichever receipt occurs first. See 5 U.S.C. §
7703(b)(2). If the action involves a claim of discrimination
based on race, color, religion, sex, national origin, or a
disabling condition, you may be entitled to
representation by a court-appointed lawyer and to
waiver of any requirement of prepayment of fees, costs,
or other security. See 42 U.S.C. § 2000e(f); 29 U.S.C. §
794a.
Other Claims: Judicial Review
If you choose not to seek review of the Board’s
decision on your discrimination claims, you may request
the United States Court of Appeals for the Federal
Circuit to review the Board’s final decision on other
issues in your appeal if the court has jurisdiction. See 5

65a
U.S.C. § 7703(b)(1). You must submit your request to the
court at the following address:

66a
APPENDIX F—LETTER FROM ROBERT E.
TAYLOR,
UNITED STATES MERIT SYSTEMS
PROTECTION
BOARD TO ALAN B. EPSTEIN, ESQ.
DATED MAY 12,1998
U.S. MERIT SYSTEMS PROTECTION BOARD
1120 Vermont Ave., NW.
Washington, DC 20419
Clerk of the Board
May 12,1998
Alan B. Epstein, Esq.
The Bellevue, 9th Floor
Broad Street at Walnut
Philadelphia, PA 19102
RE:

Reginald L. Sydnor v. Office of Personnel
Management Docket No. PH-0731-98-0188-1-1
Reginald L. Sydnor v. Social Security
Administration Docket No. PH-0752-98-0213-1-1

Dear Mr. Epstein:
This is in response to your filings dated May 4,
1998, captioned “Petition for Review of Judge
Armstrong’s Denial of Appellant’s Motion for
Certification of an Interlocutory Appeal on the Issue of
Whether Appeal No. PH-0731-98-0188-1-1 Should be
Heard by An Administrative Law Judge and Whether
the Social Security Administration is a Proper
Responding Agency to That Appeal”, “Appellant’s
Motion to Have Both Appealed Actions Against Both

A
1

67a
Agencies Assigned and Heard by an Administrative
Law Judge”, “Memorandum of Law in Support of
Appellant’s Motion for a Hearing on Both Appeals
Before an Administrative Law Judge”, and “Appellant’s
Motion for Certification of and Interlocutory Appeal on
the Issue of Whether Appeal No. PH-0731-98-0188-1-1
Should be Heard by an Administrative Law Judge and
Whether the Social Security Administration is a Proper
Responding Agency to that Appeal”.
The Board’s regulations do not provide for a petition for
review of an administrative judge’s denial of amotion for
certification of an interlocutory appeal. Further, the
Board does not entertain motions for certification of
interlocutory appeals. Such a motion can be made only to
the judge, in this case, Judge Armstrong, under the
provisions of 5 C.F.R. § 1201.93.
As you are aware, our regulations provide that an
administrative judge’s initial decision may be reviewed
by the Board on petition for review after the initial
decision is issued. Any disagreements a party may have
with a ruling or determination by the judge may be made
on petition for review. Therefore, parties should raise
and preserve objections during proceedings in order to
raise them on petition for review.
Your filings are being forwarded to Judge Armstrong
for inclusion in the records.
Sincerely,
s/ Robert E. Taylor
Robert E. Taylor

/

68a
APPENDIX G—ORDER OF THE UNITED
STATES OF AMERICA MERIT SYSTEMS
PROTECTION BOARD, WASHINGTON
REGIONAL OFFICE DENYING APPELLANT’S
MOTION FOR INTERLOCUTORY APPEAL AND
DENYING MOTION FOR PETITION FOR
REVIEW OF DENIAL DATED MAY 5,1998
UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD
WASHINGTON REGIONAL OFFICE
DOCKET NUMBER
PH-0731-98-0188-1-1
REGINALD L. SYDNOR,
Appellant,
v.
OFFICE OF PERSONNEL MANAGEMENT,
Agency.
DATE: MAY 5,1998
***

By motion dated April 23,1998, the appellant filed
an interlocutory appeal seeking review of my order
denying his motions to have the appeal of OPM’s
suitability determination heard by an administrative law
judge and to name the Social Security Administration as
a party in the suitability appeal. Although the motion for

69a
an interlocutory appeal was denied in a subsequent
status conference, the denial was erroneously not
memorialized for the record.
Pursuant to the Board’s regulation, an
administrative judge will certify a ruling for review only
if the record shows that the ruling involves an important
question of law or policy about which there is substantial
ground for difference of opinion; and an immediate ruling
will materially advance the completion of the
proceeding, or the denial of an immediate ruling will
cause undue harm to the party or the public. 5 C.F.R. §
1201.92. Although the appellant disagrees with my
rulings, it is my determination that that the issues in
question do not present an important question of law or
policy about which there should be a substantial basis for
a difference of opinion. Accordingly, the appellant’s
motion for an interlocutory appeal is DENIED.
Subsequent to my oral denial of his motion for an
interlocutory appeal, by submission dated May 5, 1998,
the appellant filed a motion seeking petition for review
of my ruling on this issue. The appellant’s motion is
frivolous and reflects a failure to review the Board’s
regulations or relevant caselaw prior to filing the motion.
The Board’s regulations for an interlocutory appeal
expressly provide that: “[i]f the judge denies the motion,
the party that sought certification may raise the matter
at issue in a petition for review filed after the initial
decision is issued, in accordance with §§ 1201.113 and
1201.114.” 5 C.F.R. § 1201.93(b) (emphasis supplied). See
Crumbaker v. Department of Labor, 7 M.S.P.R. 84, 91
(1981); Bauer v. Department of the Treasury, 4 M.S.P.R.
357, 358 (1980). As the appellant is undoubtedly aware,
no initial decision has yet been issued in this appeal. At
the time an initial decision is issued, the appellant will
receive instructions on how to file a petition for review

70a
with the full Board. Until that time, his motion is
premature and is DENIED.
FOR THE BOARD:
’

s/ Sherry A. Armstrong
Sherry A. Armstrong
A

dministrative Judge

#

71a
RELEVANT PROVISONS INVOLVED

The Fifth Amendment to the United States
Constitution provides in relevant part:
“No person shall...be deprived of life, liberty, or
property, without due process of law...”

Article II, 2, cl 2 of the United States Constituti on
provides in part:
...the Congress may by law vest the appointment
of such inferior officers, as they think proper, in the
President alone, in the Courts of Law, or in the Heads
of Departments”

5 U.S.C 556 provides in relevant part:
This section applies, according to the provisions
thereof, to hearings required by 553 or 554 of this title
to be conducted in accordance with this section
(b) There shall preside at taking of evidence(3) one or more administrative law judges
appointed under 3105 of this title.
5 U.S.C. 557 provides in relevant part:
This section applies, according to the provision
thereof, when a hearing is required to be conducted in
accordance with section 556 of this title.

"4

V
-V

72a
(b) When the agency did not preside at the
reception of evidence, the presiding employee or....an
employee qualified to preside at the hearing pursuant
to section 556 of this title, shall initially decide the
case...
5 U.S.C. 702 provides in relevant part:
A person suffering legal wrong because of
agency action, or adversely affected or aggrieved by
agency action within the meaning of a relevant statute,
is entitled to judicial review thereof. An action in a
court of the United States seeking relief other than
money damages and stating a claim that an agency or
an officer or employee thereof acted or failed to act in
an official capacity or under color of legal authority
shall not be dismissed nor relief therein denied on the
grounds that it is against the United States or that the
United States is an indispensable party....
5 U.S.C 7511 provides in relevant part:
(a) For the purpose of this subchapter(1) “employee” means(A) an individual in the competitive service5 U.S.C. 7512 provides in relevant part:
This subchapter applies to(1) a removal;
(2) a suspension for more than 14 days;
but does not apply to-

73a
(E) an action initiated under section 1215 or
7521 of this title, or
(E) a suitability action taken by the office under
regulations prescribed by the office, subject to the rules
prescribed by the president under this title for
administration of the competitive service.
5 U.S.C. 7513 provides in relevant part:
(a) Under regulations prescribed by the Office
of Personnel Management, an agency may take an
action covered by this subchapter against an employee
only for such cause as will promote the efficiency of the
service.
5 U.S.C. 7514 provides:
The Office of Personnel Management may
prescribe regulations to carry out the purpose of this
subchapter, except as to concerns any matter with
respect to which the Merit Systems Protection Board
may prescribe regulations.

5 U.S.C 7521 provides in relevant part:
(a) An action may be taken against an
administrative law judge appointed under section 3105
of this title by the agency in which the administrative
law judge is employed only for good cause established,
and determined by the Merit Systems Protection Board
on the record after opportunity for hearing before the
Board (MSPB).
(b) The actions covered by this section are

i

74a
(1) a removal;
(2) a suspension;
5 U.S.C 7703 (C) provides in relevant part:
(c) In any case filed in the United States Court
of Appeals for the Federal Circuit, the Court shall
review the record and hold unlawful and set aside any
agency action.. .except that in the case of discrimination
brought under any section referred to in subsection (b)
(2) of this section, the employee or applicant shall have
the right to have the facts subject to trial de nova by
the reviewing Court.
28 U.S.C. 1254 provides in relevant part:
Cases in the courts of appeals may be reviewed
by the Supreme Court by the following methods:
(1) By writ of certiorari granted upon the
petition of any party to any civil or criminal case, before
or after rendition of judgment or decree;
28 U.S.C. 1361 provides;
The district court shall have original
jurisdiction of any action in the nature of mandamus to
compel an officer or employee of the United States or
any agency thereof to perform a duty owed to the
plaintiff.
28 U.S.C. 1651 provides in part:
(a) The Supreme Court and all courts
established by Act of Congress may issue all writs
necessary or appropriate in aid of their respective

75a
jurisdictions and agreeable to the usage and principles
of law.

5 C.F.R. 1201.118 provides:
Board reopening of final decisions. Regardless
of any other provision of this part, the Board may at
any time reopen any appeal in which it has issued a final
order or in which an initial decision has become the
Board’s final decision by operation of law.
5 C.F.R. 1201.137 provides in relevant part:
(a) Covered actions. The jurisdiction of the
Board, under 5 U.S.C.7521 and this subpart with
respect to actions against administrative law judges is
limited to proposals by an agency to take any of the
following actions against an administrative law judge:
(1) removal;
(2) suspension;
5 C.F.R. 1201.140 provides in relevant part:
(a) Judge. (1) Administrative law judge will
hear an action brought by an employing agency under
this subpart against a respondent administrative law
judge.
5 C.F.R. 1201.142 provides in relevant part:
An administrative law judge who alleges
that an agency has interfered with the judge’s qualified
decisional independence so as to constitute an

